HHS/OIG-Audit--"Retroactive Claims Under the Title IV-E Foster Care Program in Indiana, (A-05-97-00026)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Retroactive Claims Under the Title IV-E Foster Care Program in Indiana,"
(A-05-97-00026)
January 22, 1998
Complete Text of Report is available in PDF format
(878 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
In 1990 Indiana contracted with the Institutes for Health and Human Services,
Inc. (IHHS) to enhance title IV-E reimbursement by identifying additional eligible
foster care claims. Based on the work of IHHS, Indiana submitted retroactive
claims for Calendar Year 1993 totaling $8.5 million for reimbursement. Our audit
was made to determine whether adequate documentation was available to support
the retroactive claims. This final report points out that such documentation
was not available. The State has continually been unable to locate supporting
documentation originally submitted by IHHS and has been unsuccessful in its
attempts to obtain duplicate copies from the IHHS. Also, the IHHS did not respond
to letters and phone call from the State requesting copies of the supporting
documents in accordance with the terms of their contract, nor did IHHS return
our follow-up telephone calls. Therefore, we recommended that the State make
a financial adjustment for the $8.5 million. The State concurred with our recommendation
and made the financial adjustment.